                                                    SENSITIVE BUT UNCLASSIFIED



    A
                                              United States Department of State
                                           and the Broadcasting Board of Governors
                                                  Office of Inspector General
Office of Inspector General


                                                 Office of Inspections

                                                     Inspection of
                                                Embassy Beirut, Lebanon

                                          Report Number ISP-I-12-10A, February 2012




                                                                Important Notice

                              This report is intended solely for the official use of the Department of State or the
                              Broadcasting Board of Governors, or any agency or organization receiving a copy
                              directly from the Office of Inspector General. No secondary distribution may be made,
                              in whole or in part, outside the Department of State or the Broadcasting Board of
                              Governors, by them or by other agencies of organizations, without prior authorization
                              by the Inspector General. Public availability of the document will be determined by the
                              Inspector General under the U.S. Code, 5 U.S.C. 552. Improper disclosure of this report
                              may result in criminal, civil, or administrative penalties.




                                                    SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED



                    PURPOSE, SCOPE, AND METHODOLOGY
                           OF THE INSPECTION

        This inspection was conducted in accordance with the Quality Standards for Inspection
and Evaluation, as issued in 2011 by the Council of Inspectors General on Integrity and
Efficiency, and the Inspector’s Handbook, as issued by the Office of Inspector General for the
U.S. Department of State (Department) and the Broadcasting Board of Governors (BBG).

PURPOSE AND SCOPE

       The Office of Inspections provides the Secretary of State, the Chairman of the BBG, and
Congress with systematic and independent evaluations of the operations of the Department and
the BBG. Inspections cover three broad areas, consistent with Section 209 of the Foreign Service
Act of 1980:

   •   Policy Implementation: whether policy goals and objectives are being effectively
       achieved; whether U.S. interests are being accurately and effectively represented; and
       whether all elements of an office or mission are being adequately coordinated.

   •   Resource Management: whether resources are being used and managed with maximum
       efficiency, effectiveness, and economy and whether financial transactions and accounts
       are properly conducted, maintained, and reported.

   •   Management Controls: whether the administration of activities and operations meets the
       requirements of applicable laws and regulations; whether internal management controls
       have been instituted to ensure quality of performance and reduce the likelihood of
       mismanagement; whether instance of fraud, waste, or abuse exist; and whether adequate
       steps for detection, correction, and prevention have been taken.

METHODOLOGY

In conducting this inspection, the inspectors: reviewed pertinent records; as appropriate, circulated,
reviewed, and compiled the results of survey instruments; conducted on-site interviews; and
reviewed the substance of the report and its findings and recommendations with offices,
individuals, organizations, and activities affected by this review.




                                           i
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED



                                                        United States Department of State
                                                        and the Broadcasting Board of Governors

                                                        Office of Inspector General




                                           PREFACE


       This report was prepared by the Office of Inspector General (OIG) pursuant to the
Inspector General Act of 1978, as amended, and Section 209 of the Foreign Service Act of 1980,
as amended. It is one of a series of audit, inspection, investigative, and special reports prepared
by OIG periodically as part of its responsibility to promote effective management,
accountability, and positive change in the Department of State and the Broadcasting Board of
Governors.

        This report is the result of an assessment of the strengths and weaknesses of the office,
post, or function under review. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observation, and a review of applicable documents.

       The recommendations therein have been developed on the basis of the best knowledge
available to the OIG and, as appropriate, have been discussed in draft with those responsible for
implementation. It is my hope that these recommendations will result in more effective, efficient,
and/or economical operations.

       I express my appreciation to all of those who contributed to the preparation of this report.




                                              Harold W. Geisel
                                              Deputy Inspector General




                                           ii
                              SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED


                               Table of Contents

Key Judgments                                           1
Context                                                 2
Executive Direction                                     4
Policy and Program Implementation                       7
  Political/Economic Section                            7
  Foreign Assistance                                    7
  Narcotics and Law Enforcement                         8
  Public Diplomacy                                      9
  Consular Operations                                  12
Resource Management                                    15
  Management Operations                                16
  Financial Management                                 16
  Human Resources                                      17
  General Services                                     18
  Facilities Management                                20
  Safety, Health, and Environmental Management         21
  (b) (5)                                              21
Quality of Life                                        25
  Community Liaison Office                             25
  Employee Association                                 25
  Medical Unit                                         27
  Equal Employment Opportunity                         27
Management Controls                                    28
List of Recommendations                                29
List of Informal Recommendations                       32
Principal Officials                                    34
Abbreviations                                          35




                                      iii
                          SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


Key Judgments
   •   Embassy Beirut performs its core policy and operational missions well. However, its
       substantive strengths are undercut by front office leadership shortcomings (b) (5)



   •   Embassy reporting attracts a wide Washington readership and receives high marks from
       consumers for timely and insightful analysis. The embassy is seen as an engaged, skillful
       player in Washington policy discussions.

   •   The embassy has been successful in recalibrating U.S. foreign assistance programs to
       strengthen Lebanese civil society and institutions. However, the scope of foreign
       assistance to Lebanon remains closely tied to volatile regional developments.

   •   Nearly three decades after the bombing of the U.S. Embassy in 1983, the embassy still
       occupies an overcrowded and functionally obsolete compound (b) (5)
                 The Department of State (Department) should expeditiously fund construction
       of a new compound now that the embassy has acquired land for this purpose.

   •   Embassy Beirut operates an extensive security program in a critical threat environment.
       The embassy is undertaking a thorough review of its security posture to determine
       whether the extraordinary measures currently in place remain necessary.

   •   Embassy Beirut has successfully defined its key public diplomacy target audiences,
       including women, young people, and specific sectarian groups, and deploys its public
       diplomacy resources to maximize engagement with those groups.



The inspection took place in Washington, DC, between September 12 and October 13, 2011, and
in Beirut, Lebanon, between October 31 and November 11, 2011. (b) (6)




                                          1
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Context
        Stability and peace often elude Lebanon, whose population of 4 million is divided into 18
religious sects and a kaleidoscope of ethnic groups, many of whom maintain ties to political
parties and some to armed militias. Every aspect of public administration requires a balance
among Christians, Sunni, and Shia Muslims. The activities of extremist groups, like the Iran-
backed Hizballah; interference from outside the country; and periodic cross-border military
conflict further complicate the achievement of durable political and social stability. As a result,
Embassy Beirut personnel operate in an extremely challenging environment that demands expert
diplomatic skills as well as personal fortitude.

        Lebanon’s recent history is marked by bouts of disruption, turmoil, and conflict. The
period of relative calm and rapid economic growth that followed the civil war of 1975–1990
ended in February 2005 with the assassination of former Prime Minister Rafiq Hariri. Massive
demonstrations led to the withdrawal of Syrian military forces later that year. A disastrous 34-
day conflict with Israel in 2006, touched off by Hizballah’s kidnapping of two Israeli soldiers,
left Lebanon with much of its infrastructure in rubble, its economic output slashed by half, and a
deeply entrenched Hizballah eager for more political power. The national unity government of
Hariri’s son Saad Hariri was toppled by Hizballah in January 2011. There was no functioning
government for 5 months this year while the parties negotiated for positions and to determine the
future role of Hizballah in the administration. The present government, headed by the relatively
moderate political veteran Nijab Mikati and supported by the Iran- and Syria-backed “March 8”
coalition of Christian, Sunni, Shia, and Druze parties, is steering a narrow course among
Lebanon’s powerful sectarian factions. Uncertainty regarding the ongoing popular uprising in
Syria is a major concern; a spillover of the Syrian conflict into Lebanon, or a
humanitarian/refugee crisis, would have grave implications for the government and people of
Lebanon.

         U.S. policy prohibits any form of contact with Hizballah, a designated terrorist
organization that supports one of the main factions of the government and controls territory in
southern Lebanon. Within this exclusion, U.S. support and assistance to Lebanon aim to promote
a state that is sovereign, independent, democratic, and prosperous and that can secure its borders,
ensure internal security, undercut terrorism, and respond to the needs of its citizens. The United
States supports programs to increase the capabilities of the Lebanese security forces to maintain
order, control the borders, and counter terrorism through the provision of equipment and training.
The United States also supports efforts to ensure that Lebanon fulfills its international
obligations with respect to the Special Tribunal for Lebanon. The U.S. Agency for International
Development (USAID) and other programs strengthen civil institutions and good governance,
focusing on the municipal level and outreach to civil society. Private sector development is the
focus of programs to foster economic growth across sectarian lines. Protection of the
approximately 100,000 U.S. citizens resident in Lebanon is also a high priority.

       Security concerns have dictated diplomatic operations and embassy community life in
Lebanon since the bombing of the U.S. embassy in 1983. All embassy personnel live on the 18-
acre compound and travel outside the confines of the embassy only with extensive security
support. The chancery is located in an overcrowded and functionally obsolete hodgepodge of
                                           2
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

buildings. Property has been purchased for a new embassy compound, currently scheduled for
construction in 2019. In the meantime, the Bureau of Overseas Buildings Operations (OBO) and
USAID are constructing additional housing to relieve chronic overcrowding. Although embassy
employees now serve standard 2-year tours, Beirut remains a difficult and dangerous
nontraditional assignment; the hardship differential is set at 20 percent and danger pay at 25
percent, and only adult family members can accompany employees to post.

        Embassy staffing consists of 57 direct-hire Americans and 550 locally employed (LE)
staff, which includes personnel from the Departments of State, Defense, and Justice, as well as
USAID. Operating budgets for all agencies at the mission totaled $52.7 million. In addition, the
embassy administers a foreign assistance portfolio that totaled $238.3 million in FY 2010.




                                          3
                             SENSITIVE BUT UNCLASSIFIED
                                SENSITIVE BUT UNCLASSIFIED


   Executive Direction
           Embassy Beirut is performing its core policy and operational missions well. Restrictive
   security requirements severely limit the movement of personnel, outreach opportunities, and the
   conduct of normal diplomatic business in Lebanon. The embassy works around these constraints
   to carry out a well-focused program that includes advocacy on regional peace issues,
   counterterrorism cooperation, and assistance to civil society, along with the protection of U.S.
   citizens. The caliber of its staff ensures that the embassy is able to achieve progress on its
   Mission Strategic and Resource Plan (MSRP) goals. The Americans, from entry-level officers
   (ELO) to senior section chiefs and heads of agency, are talented and committed; LE staff is
   experienced and dedicated. (b) (5)


            Both the Ambassador and the deputy chief of mission (DCM) have substantial regional
   expertise, crucial in one of the Bureau of Near Eastern Affairs’ (NEA) most sensitive posts.
   Before coming to Beirut a year ago, the Ambassador served in five other regional missions,
   including a period as chargé d’affaires in Syria. She received high marks from NEA and the
   Washington interagency community for her authoritative knowledge of Lebanon and its
   neighbors. At post, inspectors witnessed her command of local and regional affairs in multiple
   meetings. The Ambassador is respected as a skilled strategist and a seasoned and effective player
   in the Washington interagency decisionmaking process. Following the 2011 fall of the Hariri
   government, the Ambassador spearheaded a reevaluation of U.S. assistance programs and
   successfully steered the mission’s proposal through the interagency network. Taking note of an
   opportunity to strengthen civil society institutions and work with local municipal government
   partners, the Ambassador laid a strong foundation for engaging directly with Lebanon’s people.
   Working within the exclusion of U.S. prohibitions on contacts with Hizballah, she has developed
   relationships across the sectarian and party spectrums to ensure that Washington receives the
   fullest possible view of decisionmakers and trends. Under her oversight, the embassy produces
   well-drafted reporting that is valued for its insightful analysis of the extremely complex
   Lebanese political, sectarian, and economic scenes.

           The DCM arrived in Beirut in the summer of 2011, after three previous assignments in
   the Middle East, including Beirut and a 6-month temporary duty assignment to Baghdad. She
   recently completed back-to-back assignments in Pakistan. In the front office division of labor,
   the Ambassador focuses on policy issues while the DCM supervises internal operations and the
   management of the embassy. The Ambassador charged the DCM in particular with oversight of
   the management section.
(b) (5)




                                             4
                                SENSITIVE BUT UNCLASSIFIED
                                   SENSITIVE BUT UNCLASSIFIED
(b)(5)(b)(6)




             The front office’s schedule is framed by an extensive committee and meeting structure. In
     addition to weekly country team meetings and individual meetings with section chiefs and heads
     of agencies, the Ambassador or DCM holds a weekly policy review committee, a roundtable
     with senior LE staff, and a counterterrorism meeting. All-hands meetings of the American staff
     occur every 2 weeks. Although the number and frequency of meetings reflect the Ambassador’s
     commitment to keeping employees informed of developments in and outside the compound, in
     practice, many participants feel that these meetings do not yield enough useful guidance or
     insights to justify the investment of time and effort. Inspectors discussed with the Ambassador
     other ways to maximize two-way flow of information and promote team cohesion. The OIG
     team believes the Ambassador should develop more wide-ranging contacts in the mission to
     foster an environment of consultation and collaboration (b) (5)
                                                                       Inspectors suggested that the
     front office invigorate a personalized dialogue with the community by engaging in more frequent
     contacts with employees in less formal settings and in smaller or individual groupings. Making
     impromptu visits to sections and walking about the compound would also help provide the front
     office with a better sense of employee concerns (b) (5)

               Regional support has not been as frequent as is necessary in this high-stress environment.
     The regional psychiatrist has not visited the embassy in more than a year. Visits from the
     regional human resources officer similarly have been sporadic. The recent resignation of the
     post’s community liaison office (CLO) coordinator also leaves a gap that a new coordinator must
     fill in terms of communicating family member and workplace concerns to the front office.
(b)(5)(b)(6)




                                                5
                                   SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

Recommendation 1: (b) (5)




Recommendation 2: (b) (5)



Entry-Level Officers

        The embassy does not offer a formal mentoring program for ELOs, although the front
office is concerned about and designates activities for ELOs. The DCM has held one quarterly
dinner with the ELOs as a group. The front office supports training by asking ELOs to serve as
note-takers at country team meetings, requiring them to attend meetings, and assigning them
individual projects. Although ELOs welcome the opportunity to learn more about the Foreign
Service and the workings of an embassy, the absence of guidance, choice, and feedback limits
the value of the learning experience. (b) (5)

                  Informal, individual counseling sessions with front office and other senior
leaders would serve both educational and (b) (5) objectives.

Recommendation 3: Embassy Beirut should establish a formal mentoring and professional
development program for entry-level officers and specialists that emphasizes personal mentoring
by mission leaders. (Action: Embassy Beirut)




                                          6
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Policy and Program Implementation
Political/Economic Section

        The embassy’s combined political/economic section produces insightful reporting on the
complex and dynamic political situation in Lebanon. The section is composed of eight American
reporting officers, one American office management specialist, and eight LE staff members.

        The section is adequately staffed to report on internal and external political and economic
developments. The section head provides strong leadership and demonstrates a clear idea of how
to assign responsibilities effectively. With the recent departure of an experienced reporting
officer, the section must redistribute portfolios to capitalize on talent and delegate
responsibilities appropriately.

        Washington consumers cited examples of strong and relevant section reporting. The
section has been particularly successful in fostering U.S. engagement with Lebanon during a
time of political transition and heightened tension in neighboring Syria. The embassy has
anticipated the humanitarian and security consequences for the region should instability increase
in neighboring Syria, and it coordinates effectively with other agencies on issues related to U.S.
counterterrorism assistance programs.

         The section devotes appropriate resources to economic reporting. Washington consumers
reported that the embassy’s financial reporting was timely and well sourced. However, embassy
reporting on military issues has not kept pace with that on internal political issues. The
political/economic chief circulated a draft reporting plan that emphasizes additional analysis in
this area.

        The section dedicates considerable resources to the translation, analysis, and reporting of
public speeches by Lebanese political leaders, even though these open-source materials are
available to Washington consumers through other channels. The embassy’s comparative
advantage is in providing reaction and context to these public speeches rather than in translating
them.

       Informal Recommendation 1: Embassy Beirut should discontinue translation of open-
       source press and media that are available to Washington consumers from other sources.

Foreign Assistance

         Since the last inspection, the U.S. Government has expanded bilateral assistance to
Lebanon. In response to the withdrawal of Syrian troops in 2005, the U.S. Government provided
a significant assistance package that included military and police training, nonlethal military
assistance, and other development assistance to strengthen civil society and democratic
institutions. The total value of this assistance in FY 2010 was more than $238 million. Lebanon
is on the Trafficking in Persons Tier 3 List, with a national interests waiver that allows it to
continue to receive foreign assistance despite concerns about trafficking issues.


                                           7
                              SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED

         To coordinate programs, the embassy holds regular meetings among agencies
responsible for implementing military and civilian assistance. Within the political section, an FS-
02 political officer serves as foreign assistance coordinator for programs managed directly by the
Department. With the assistance of two LE staff members, the coordinator oversees a robust
foreign assistance portfolio that includes Middle East Partnership Initiative (MEPI) programs
and small grants programs, and the public affairs section (PAS) oversees the MEPI-funded
Access program of English instruction.

        Embassy Beirut manages a number of small grants projects that require regular oversight
and monitoring. These include 17 MEPI local grants with a combined value of $1.47 million, as
well as Lebanon-specific grants from MEPI Washington that are valued at approximately $2
million. In addition, NEA funds small grants for civil society organizations, with a total value of
$400,000. However, the embassy has no standard operating procedures and processes for
documenting the outcomes of site visits. Although the embassy has procedures in place to
require quarterly visits to funded projects, in practice, officers rarely visit the projects more than
once a year. The resultant reporting does not give the grants office the detailed information
needed to document whether grants and cooperative agreements are meeting their intended
purposes.

Recommendation 4: Embassy Beirut should implement standard procedures to document the
progress of grantees in meeting their stated objectives. (Action: Embassy Beirut)

Narcotics and Law Enforcement

        The embassy established a narcotics and law enforcement section in 2008 to oversee
assistance programs for Lebanon’s police services, the Internal Security Forces. Since 2006, the
embassy has executed projects totaling $131 million, with the primary purpose of equipping and
training police personnel, refurbishing training facilities, and furnishing technical equipment and
vehicles to Internal Security Forces counterparts. Headed by an experienced FS-01 section chief,
the Bureau of Narcotics and Law Enforcement Affairs program is at a transition point. With the
completion of its initial mission to train approximately 7,000 police personnel and construct
training facilities, the embassy is in discussions with the host government about handing over
training responsibilities and recalibrating U.S. assistance to emphasize specialized curriculum
topics such as community policing, human rights, and trafficking in persons.

         The embassy uses polling to assess the impact of its programs on public perceptions of
police effectiveness. The embassy also commissioned a contractor performance review to assess
its training program and make improvements to its instructional program. The polling and
performance review both suggest that police training activities have made modest but measurable
improvements in police capacity. However, the limited ability of the Internal Security Forces to
operate in major segments of the country, including Palestinian refugee camps, the Bekaa Valley,
and Hizballah-controlled areas, is not likely to be strengthened significantly by U.S. assistance.
The future role of the Internal Security Forces depends on the Lebanese Government’s
willingness to expand civilian policing to areas where the country’s sectarian security forces
operate.


                                            8
                               SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

        Most of the section’s LE staff members are new to the U.S. Government and have
worked on Bureau of Narcotics and Law Enforcement Affairs programs for less than a year. The
section has developed procedures to ensure Leahy Amendment vetting of trainees, provide
annual end-use monitoring of property, and comply with procurement and financial reporting
regulations for Bureau of Narcotics and Law Enforcement Affairs-funded activities. Training and
construction projects associated with these programs generally meet time frames and
construction quality benchmarks.

        One exception is a program to equip the Internal Security Forces with secure radio
communications. Funding for this program is from various sources and totals approximately $15
million. Although the secure radio program is a high priority for the Internal Security Forces, the
Government of Lebanon has not granted permission to use an appropriate frequency to allow
deployment of a radio network. In addition, technical procurement standards for the equipment
remain under discussion nearly 4 years after funds were obligated. According to senior embassy
officials, the program will not meet its performance goals without resolution of these issues. The
radio frequency decision, in particular, is at a political impasse that is not likely to be resolved.
For this reason, it is doubtful that the secure radio program will successfully meet its objectives
in the foreseeable future.

Recommendation 5: The Bureau of International Narcotics and Law Enforcement Affairs, in
coordination with Embassy Beirut, should terminate the Internal Security Forces secure radio
program and reprogram funds for other use, if appropriate. (Action: INL, in coordination with
Embassy Beirut)

Public Diplomacy

        Security constraints and limited infrastructure affect the way Embassy Beirut conducts
public diplomacy. Travel restrictions limit the places staff members can go and the frequency
with which they leave the compound. The section’s offices are located in a cluster of trailers on
the compound. Although some offices have doors, staff members are on view at all times. The
physical layout presents a challenge to staff cohesion and communication. Given these
limitations, the embassy does a creditable job of engaging the Lebanese public, and PAS is
active and focused.

        All three American officers are new to the embassy. The public affairs officer supervises
nine LE staff members and two ELOs, one of whom encumbers a newly created position. The
public affairs officer is working with staff to reconfigure responsibilities and understands that
this task will require revision of some LE staff position descriptions. LE staff members are
knowledgeable and skilled in dealing with Lebanese audiences.

       The public affairs officer holds regular staff meetings, and the flow of information
appears to be adequate. (b) (5)




                                           9
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

        The MSRP places an appropriate emphasis on reaching out to specific groups, including
women, young people, and certain Shia and Sunni Muslim populations. PAS staff members
universally understand and support the focus on these groups. Because security constraints
preclude embassy employees from working in certain parts of the country, PAS works in some
cases by proxy, funding organizations to carry out programs and activities that engage the
targeted groups. Under contract, a nongovernmental organization advises Lebanese students on
options for study in the United States; another runs a program to teach English to rural women.
PAS personnel sustain regular contact with nongovernmental organization staff and solicit
feedback from program participants.

Press and Information Programs

        The Lebanese media are among the freest and most freewheeling in the Middle East. The
Ambassador and the public affairs officer speak for the embassy but do so on the record
infrequently. The information officer is responsible for sustaining contact with working-level
journalists and also appears in the media, including television and radio, to address subjects other
than U.S. policy. The embassy is preparing a mission policy on roles and responsibilities for
interactions with the press.

        Under the information officer’s supervision, LE staff members divide responsibility for
monitoring the media by sector, including print, radio and television, and the Internet. The
section produces a regular media brief that is disseminated throughout the mission and to
Washington readers. Both American officers and LE staff maintain contact with Lebanese
journalists.

Information Resource Center

         Embassy Beirut operates a small Information Resource Center. Because of the limited
availability of office space on the embassy compound, the Information Resource Center focuses
its efforts on responding to queries, which typically come from students and professors, and on
disseminating information electronically to targeted individuals. A more ambitious center, such
as one that extends invitations to selected target audiences and conducts on-site programming, is
not practical.

Internet and Social Media

      PAS manages the embassy’s Web page, and the section has a presence in social media.
The OIG team reviewed the sites and found that they meet Department criteria.

American Corners

        Embassy Beirut supports two relatively active American Corners. Given the limited
ability of American personnel to travel off compound, PAS does a good job of visiting the
Corners and staying in touch with the hosting organizations who oversee them. Partnerships exist
on the books with two other organizations, but these Corners are not currently active. PAS is
considering whether to dissolve these partnerships.

                                          10
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

Educational and Cultural Affairs

         The embassy’s exchange programs function effectively. The DCM chairs the nominating
committee for the International Visitor Leadership Program. The nominees reflect MSRP
priorities and meet the criteria for selection. International Visitor Leadership Program staff in the
Bureau of Educational and Cultural Affairs praised the quality of the program and PAS’s
communication with Washington.

        PAS manages a Fulbright Program that also runs well. Given security concerns, the
program brings U.S. scholars, rather than students, to Lebanon in the belief that adults have the
maturity to comport themselves appropriately in a dangerous environment. The regional security
office conducts a briefing for incoming American Fulbright fellows, and PAS stays in touch with
them. The quality and level of preparation of Lebanese students who go to the United States are
typically high.

        PAS has successfully organized an alumni organization. Launched in 2010, the group has
a membership of 3,500 alumni of U.S. Government exchange programs. One LE staff member
has primary responsibility for alumni issues. Continued PAS involvement has been crucial to the
organization’s success; however, its long-term viability will depend on developing institutional
independence and identifying projects that bring members together in a common cause. PAS
staff members understand the need for their active engagement with the group for the foreseeable
future.

       PAS funds and oversees two programs that engage priority MSRP audiences. The Access
program, funded by the Bureau of Educational and Cultural Affairs, teaches English to young
people from disadvantaged communities. Teaching Women English, a Lebanon-specific
program, engages rural women. Although hard metrics for evaluating success do not exist,
anecdotal and informal feedback suggests that both programs warrant the investment.

Administration

       PAS keeps track of its professional contacts by using a spreadsheet that is unwieldy and
does not allow the embassy to track information useful for public diplomacy programs. The
Regional Information Management Center in Frankfurt has developed contact management
software that is designed to meet an embassy’s needs. In the absence of such software, PAS is
not operating as efficiently as it could be.

Recommendation 6: Embassy Beirut should acquire contact management software and train
personnel on its use. (Action: Embassy Beirut)

        The OIG team reviewed a selection of public diplomacy grants files and found that funds
were properly expended. Activities supported by the grants meshed with MSRP priorities.
However, at the time of the inspection, a number of public diplomacy grants files contained
incomplete documentation. The public affairs officer had already identified these deficiencies,
and the cultural affairs officer was overseeing a PAS-wide corrective action plan to address
identified procedural deficiencies. In addition, a number of PAS employees enrolled in online
grants training during the inspection.
                                          11
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

Consular Operations

        The consular section provides effective and efficient service under the leadership of an
experienced consular officer. The section is appropriately staffed to meet workload demands.
Local staff members are knowledgeable and professional. Although the visa and American
citizens services units are located in separate buildings, the staff interacts frequently through
scheduled meetings. The section complies with Department guidance on referrals, safeguarding
consular equipment and supplies, cashiering guidelines, and Visas Viper reporting.

       The consular section is represented in many of the mission meetings, such as country
team and the emergency action committee. However, the consular section does not have a
representative on the International Cooperative Administrative Support Services (ICASS)
council. Consular section chiefs are responsible for reviewing and approving consular workload
counts for completeness and accuracy, and consular section participation in ICASS budget
committee meetings is essential.

Recommendation 7: Embassy Beirut should designate a consular representative to serve on the
International Cooperative Administrative Support Services budget committee. (Action: Embassy
Beirut)

        In addition, consular priorities are not reflected in the MSRP. The U.S. citizen population
in Lebanon is estimated to be approximately 100,000, about a fourth of whom are registered with
the consular section. The largest single evacuation of American citizens in U.S. history occurred
in Lebanon in 2006. The importance of protecting American citizens in such an environment
merits consideration in the annual plan.

       Informal Recommendation 2: Embassy Beirut should include consular representation
       on the Mission Strategic and Resource Plan working group.

American Citizens Services

       The unit is managed by an experienced mid-level consular officer. In FY 2012, the unit
processed more than 3,500 passport applications and nearly 400 reports of birth. The unit also
provides services in cases of arrest, repatriation, and death.

        The incumbent of this newly upgraded position does not speak Arabic because the
position was not language designated when it was created. However, the unit chief must
regularly interact with Arabic-speaking host country officials and professional contacts, for
which language proficiency is essential. An ELO position is language designated, and this
ensures basic coverage for routine and emergency services to the large American citizen
population. Arabic language skills would greatly enhance the ability of the unit chief to operate
in Beirut.

Recommendation 8: Embassy Beirut, in coordination with the Bureau of Human Resources and
the Bureau of Consular Affairs, should request language designation for the American citizens
services unit chief, position number 30358001, during the next language designation review.
(Action: Embassy Beirut, in coordination with DGHR and CA)
                                          12
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

        The American citizens services unit maintains a robust warden notification system but,
due to security restrictions on travel, has been able to conduct only one town hall meeting with
wardens a year. As a result, the annual meeting has become purely a social event rather than an
opportunity to better engage individuals who have volunteered to act as wardens.

       Informal Recommendation 3: Embassy Beirut should prepare an agenda for annual
       warden meetings and use them as opportunities to solicit feedback and evaluate the
       program on an ongoing basis.

       The consular section has developed a comprehensive written evacuation plan that
addresses potential crises that might require the evacuation of U.S. citizens. (b) (5)




Recommendation 9: (b) (5)


       The consular section chief has made it a priority to cross-train local staff in the
preparation of emergency passports in the event of an American citizen emergency evacuation.
Because all American consular officers live on the compound and would be able to respond
quickly to most disasters, similar training for American consular officers would also be helpful.

       Informal Recommendation 4: Embassy Beirut should provide training to all consular
       officers in the start-to-finish process of producing an emergency passport.

        In the event of a crisis or disaster, the protection and welfare of U.S. citizens always takes
priority over visa services. Nonimmigrant visa operations close first if there is a need to provide
extra staff for the crisis. The process of closing nonimmigrant visas requires notifying applicants,
rescheduling appointments, and reassigning staff in the event of an emergency and must be
documented in a written standard operating procedure. The absence of such a procedure could
diminish the effectiveness of the embassy’s response.

       Informal Recommendation 5: Embassy Beirut should develop a written standard
       operating procedure for closing the visa section in the event of a crisis.

        The American citizens services unit has a full portfolio of active child abduction or
custody cases. Despite security challenges, the unit has had good success in conducting visits and
reporting back to the left-behind parents. The embassy has a signed memorandum of
understanding with the Government of Lebanon that acknowledges the importance of resolving
children’s issues. Because Lebanon is not a signatory to the Hague Convention, the
memorandum is the only tool available to consular officers in difficult cases. To date, the
embassy has been able to carry out children-related visits without having to invoke the
memorandum.


                                          13
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

Visa Services

       A mid-level officer manages the visa unit and oversees both nonimmigrant and
immigrant visas. The embassy referral system for nonimmigrant visas meets the requirements of
9 FAM Appendix K, and the consular section chief provides briefings to all officers before
accepting referrals.

        The nonimmigrant visa unit processed nearly 20,000 applications in FY 2011, an increase
of more than 10 percent over the prior fiscal year. Much of the increase can be attributed to
political instability in neighboring countries, which has resulted in additional applications from
third-country nationals. Two Arabic-speaking ELOs conduct most visa interviews, and the
section chief also assists with interviews, as needed. A local bank collects the application fee and
schedules nonimmigrant visa appointments. Wait times for appointments are well within the
accepted limits and have never exceeded 20 days, even during periods of staffing shortages.

Visas Viper

       In FY 2012, the embassy held timely monthly meetings, with all required participants in
attendance, and submitted reporting cables on time. Name and visa issuance checks were
performed on all submissions in accordance with Department guidelines.

Physical Space

        Visa applicants who are required to pay additional fees prior to visa issuance are sent to
the American citizens services building to pay. Officers report that receipts are not always given
to the visa officers following payment. Applicants also go through security screening several
times. During the inspection, the consular section chief drafted a standard operating procedure to
address this complicated process.




                                          14
                              SENSITIVE BUT UNCLASSIFIED
                                     SENSITIVE BUT UNCLASSIFIED


Resource Management
                                           U.S.                          Foreign
                                                    U.S. Local-                     Total   Total Funding
              Agency                     Direct-                         National
                                                    Hire Staff                      Staff     FY 2011
                                        Hire Staff*                       Staff
 Department of State
 Diplomatic and Consular                            49               0         23      72      $3,421,081
 Programs
 ICASS                                                3              3        322     328     $14,228,000
 Public Diplomacy                                     3              0          9      12      $1,186,510
 Diplomatic Security                                  2              0        123     125      $6,318,731
 Representation                                                                                   $34,822
 OBO                                                 1                                  1     $29,951,178
 Department of Defense
 Defense Attaché Office                               2              0          1       3        $226,555
 Office of Defense                                    4              0          4       8      $1,014,400
 Cooperation
 Other                                                2              0          0       2         $63,000
 Department of Justice
 Federal Bureau of                                   1                                  1         $16,150
 Investigation
 Department of Commerce
 Foreign Commercial Service                           0              0          2       2        $245,978
 USAID                                                4              0         17      21
 Other Foreign
 Assistance**
 Economic Support Funds                                                                      $109,000,000
 International Narcotics                                                                      $20,000,000
 Control and Law
 Enforcement
 Nonproliferation and                                                                          $6,800,000
 Disarmament
 International Military                                                                        $2,500,000
 Education and Training
 Foreign Military Financing                                                                  $100,000,000
 Totals                                             70               3        501     574    $295,006,405
Source: Embassy Beirut, Congressional Budget Justification FY 2011
*Authorized staffing
**FY 2010 actuals




                                                 15
                                     SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

Management Operations

        OIG questionnaire and ICASS survey results indicate that the management section
provides adequate services to its customers. The OIG team’s on-site inspection of management
operations supports this finding. Most OIG survey scores were equal to or greater than the
averages for other posts. Below-average scores in some areas appear to be due to infrastructure
deficiencies and a challenging operating environment. Beyond satisfactory day-to-day
operations, the section achieved two significant objectives during the past year: approval for an
LE staff salary increase just prior to the worldwide freeze, and purchase of land for a new
embassy compound. The latter came after years of negotiation and will allow the Department to
move forward with construction planning.

       The management section has not benefited from intense front office attention to its
operations. (b)(5)(b)(6)




         The recent purchase of 43 acres of land adjacent to the current embassy as the future site
of a new embassy compound holds great promise as the solution to deteriorating and
dysfunctional facilities. Accelerating the construction of a new embassy compound also would
reduce the need for investment in the current facility. Although Embassy Beirut is on the Top 80
list for new compounds for FY 2019, the OIG team noted the compelling security and functional
arguments for moving construction forward in the Department’s list of capital cost-sharing
construction priorities.

Financial Management

        The financial management office functions well. A second-tour financial management
officer manages an experienced staff. Scores on both ICASS and OIG surveys for financial
services are high.

        With the expansion of USAID and Department of Defense operations in recent years, the
ICASS council now includes five customer agencies. The embassy’s ICASS council recently
approved establishing 11 positions, mostly in the general services, facilities maintenance, and
information management sections. The ICASS council meets regularly, but the OIG team could
locate only a few records of recent meetings. The embassy also does not have an ICASS budget
committee, as required by 6 FAH-5 H-012.7.

       Informal Recommendation 6: Embassy Beirut should establish an International
       Cooperative Administrative Support Services budget committee.

       The Class B cashier effectively manages cashier operations. He currently has a cash
advance of (b) (5)   which is appropriate. A cashier monitor from Bangkok visited post in June
2011 and left several recommendations that the embassy has addressed. An OIG inspector
conducted a cashier reconciliation and found no discrepancies.

                                          16
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

        Cashier hours alternate on a daily basis. On Monday, Wednesday, and Friday, hours are
10:00–12:00; on Tuesday and Thursday, they are 1:00–3:00. This arrangement causes confusion
among some embassy personnel, and many come when the cashier is not officially open. Instead
of turning employees away, the cashier accommodates them during nonbusiness hours, reducing
the time available for completing essential daily cashier internal controls.

Recommendation 10: Embassy Beirut should standardize its cashier hours so that they are the
same every day. (Action: Embassy Beirut)

        The financial management section began sending travel vouchers to the post support unit
for processing in January 2011; however, additional vouchers could be processed offshore. The
advantages of increased use of offshore voucher processing include lower costs and additional
operational continuity in the case of evacuation or other disruptions to post operations.

Recommendation 11: Embassy Beirut should implement a policy to increase its use of the post
support unit to process vouchers whenever possible. (Action: Embassy Beirut)

Human Resources

       The human resources office will gain a U.S. direct-hire human resources specialist in
summer 2012. In view of the rapid increase in embassy employee numbers and the insufficient
regional human resources support in the past, this position is essential. The embassy has
embarked on an effort to increase diversity in hiring local employees. Outreach to colleges and
technical schools has increased the number of Muslim applicants for each job. This action is
commendable and should continue. However, the embassy regularly addresses complex human
resources problems that require periodic assistance from a regional human resources officer.
Pending the arrival of the new human resources officer, a regional officer from Manama is
scheduled to visit post in late November.

Recommendation 12: Embassy Beirut, in coordination with the Bureau of Near Eastern Affairs,
should schedule quarterly human resources officer visits to Beirut until the arrival of the
permanently assigned human resources officer. (Action: Embassy Beirut, in coordination with
NEA)

        Embassy Beirut’s human resources office classifies LE staff positions, a time-intensive
and technically complex activity. In October 2011, NEA concluded a memorandum of
understanding to transfer LE staff position classification responsibilities to the Frankfurt
Regional Support Center. This program allows the embassy to transfer a significant part of its
human resources workload to a regional center, which will facilitate transparent and standardized
position classification. The embassy has not yet taken steps to participate in this program.

Recommendation 13: Embassy Beirut, in coordination with the Bureau of European and
Eurasian Affairs, should transfer local employee position classification responsibilities to the
Frankfurt Regional Support Center. (Action: Embassy Beirut, in coordination with EUR)




                                          17
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

       There is a vacant LE staff position in the human resources office. With the shifting of the
responsibility for position classification to Frankfurt, the section can reallocate duties and abolish
the vacant LE staff position.

Recommendation 14: Embassy Beirut should abolish locally employed human resources
assistant position number C54225. (Action: Embassy Beirut)

General Services

        The general services office exceeded worldwide averages in all functional areas on the
most recent ICASS customer service satisfaction survey. The OIG work and quality-of-life
questionnaire yielded slightly lower but similar results. After a lengthy gap, U.S. direct-hire
leadership has stabilized. LE staff is capable and, if ICASS funding allows, will expand by four
additional positions to keep pace with program growth. The supply chain management process
functions generally well, though the OIG team made recommendations to enhance performance
in receiving and purchase order closeout.

Procurement

         The procurement unit, composed of six employees, is adequately staffed and functions
effectively, using a proper mix of acquisition means to support embassy needs. The unit
implemented the Integrated Logistics Management System in April 2010 and has adapted well to
its use. In response to unfamiliarity on the part of some requestors, the procurement unit
developed and presented a PowerPoint briefing as additional training. This approach provided
appropriate customer orientation and outreach. Procurement also manages the portfolio of 53
leased properties that comprise the embassy compound, a complex and time-consuming task.

        The procurement unit cannot properly close out purchase orders, as it does not receive the
notification of final payment to vendors that normally triggers the closeout procedure. Instead,
the unit monitors receiving reports and moves purchase orders to a separate electronic folder
when final receipt is registered. This procedure does not meet the requirement that final payment
provide the basis for closeout.

       Informal Recommendation 7: Embassy Beirut should implement procedures to close
       out purchase orders following final payments to vendors.

        The embassy has engaged the services of a physician by using purchase orders, which is
contrary to Department guidance in the Overseas Contracting and Simplified Acquisition
Guidebook (Chapter 10, pp. 3, 8). Initially meant as a bridge mechanism to provide medical
services on a short-term basis, employment of the embassy physician through purchase has
stretched into a series of 11 procurement actions beginning in August 2009 and set to expire on
December 31, 2011. The embassy’s attempts to coordinate with the Office of Overseas
Employment to establish an exception rate range for a physician position has failed. The
embassy continues to seek a means within regulations to engage medical services.

Recommendation 15: Embassy Beirut should terminate the use of purchase orders to employ
foreign nationals. (Action: Embassy Beirut)
                                          18
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

Property Management

        The property management unit maintains generally adequate control and accountability
of personal property, but the OIG team found that receiving and storage functions require
improvement. (b) (5)




Recommendation 16: (b) (5)



        During a walkthrough of the Baaklini building, an OIG inspector noted large quantities of
engine oil being stored among furniture and other items. Special cabinets for the storage of
inflammable liquids were on order but had not yet arrived. A related issue, however, is the stock
level the embassy should maintain of items that are readily available on the local market, such as
engine oil. Reducing stock levels of such items would reduce the safety risk, obviate the need for
special storage, and minimize possible pilferage.

       Informal Recommendation 8: Embassy Beirut should store inflammable materials
       properly and minimize their stock levels based on market availability and usage.

       The OIG inspector also noted that locally fabricated shelving in the warehouse is
inadequate to accommodate the weight of stored items and therefore does not comply with 14
FAM 413.7 requirements for proper and safe storage of nonexpendable property. Although the
shelving is an expedient way to maximize limited space, it poses a safety hazard should it
collapse.

Recommendation 17: Embassy Beirut should store nonexpendable property on shelving that
meets Department of State safety requirements. (Action: Embassy Beirut)

Housing

        Housing consists of a mix of modular, temporary, and permanent structures. Embassy
policy requires that all employees live on the compound and temporary duty personnel stay at the
18-room Tango Inn. The inventory consists of 14 units of short-term lease apartments and 31
U.S. Government-constructed modular residences The absence of available housing constrains
staffing growth and, in some cases, has led to months-long delays in filling positions.

Motor Vehicle Operations

        Motor vehicle operations are divided into separate categories of nonarmored and armored
transport. The general services office maintains operational control of the former, the regional
security office the latter. The general services office, however, is responsible for maintaining and
keeping records on all vehicles. Customers express general satisfaction with vehicle services,
which the embassy provides for personal and official use as justified by security requirements
                                          19
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

and determined by the chief of mission. During the inspection, the Ambassador approved an
updated vehicle policy memorandum per 14 FAM 432.5, but it did not adequately address
appropriate charges for services per 14 FAM 433.4 a. For example, the motor pool provides food
delivery services from downtown restaurants and shuttles guests from perimeter gates to
residences, although neither function is permissible under the category of other authorized use in
the regulations.

Recommendation 18: Embassy Beirut should implement a policy that details the appropriate
charges for other authorized use of government-owned vehicles. (Action: Embassy Beirut)

        The unit performs vehicle dispatching and maintenance functions well. Operators
consistently use the Daily Vehicle Use Record (Form OF-108) to record mileage, destination,
vehicle checks, and refueling. The maintenance crew performs relatively high levels of service,
such as replacing transmission assemblies, that are beyond the norm in embassy garages. The
shop is well equipped with adequate tools, diagnostic instruments, and equipment, including a
heavy-duty lift capable of handling fully armored vehicles.

Customs and Shipping

         The customs and shipping unit performs well and provides its customers with the full
range of customs clearance, visitor support, and travel services. In 2012, the embassy began
using the Department-standard method of shipping via the International Through Government
Bill of Lading. Door-to-door handling of shipments by the contractor, which is a fundamental
feature of this mode of transport, is interrupted by a security requirement that precludes lift vans
containing personal effects from being stored at contractor facilities. The embassy therefore must
provide temporary storage for household effects and unaccompanied air baggage pending their
transfer to shipping contractors. The 2005 OIG report recommended review of this policy, which
remains in effect.

Facilities Management

         With the exception of the U.S. Government-owned Baaklini building, which was heavily
damaged in the 1984 embassy bombing, the embassy leases all properties on the 18-acre
compound. The compound’s steep incline and limited infrastructure have imposed constraints on
its use. As a result, the compound is now a hodgepodge of prefabricated buildings interspersed
among existing villas that together provide office and residential space to embassy staff.

        Until the construction of a new embassy compound, the facilities management section is
fully engaged in planning and executing 49 projects that include construction of modular
residences costing $4.5 million and an electrical and telephone upgrade totaling $2.9 million.
Other projects run the gamut from waterproofing to renovation to office reconfigurations. The
section is challenged to provide the necessary number of escorts and contracting officer
representatives to oversee projects. Processing security clearances for contractor personnel can
also be problematic. Scheduling and sequencing, therefore, play a critical role in project planning
and execution.


                                          20
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

        At the transactional level, the facilities management section functions adequately. The
ICASS council approved the addition of six positions pending availability of funds. The section
manages its day-to-day workload using the Department-standard Work Orders for Windows
application. An OIG inspector determined that most data were current and that the clerk used the
application to manage basic workflow, such as requests and labor hours expended. Other features
of the software, however, remain unused, such as preventive maintenance tasks and schedules
and equipment data.

Recommendation 19: Embassy Beirut should implement a policy to use the required functions
of the Department of State-standard Work Orders for Windows facilities maintenance
management application. (Action: Embassy Beirut)

Safety, Health, and Environmental Management

        Embassy Beirut’s safety program is active but requires improvement. The post
occupational safety and health officer and his assistant, trained in March 2011, are
knowledgeable and have implemented 83 percent of the Priority 1 recommendations made
following the June 2007 Synergy visit. However, the embassy is not consistently holding safety,
health, and environmental management committee meetings as required by 15 FAM 933.2 a.
Embassy records document one meeting in January 2011; records were unavailable for prior
years. The embassy recorded 41 vehicular accidents and a substantial number of workplace
mishaps between October 2010 and June 2011. Safety, health, and environmental management
committee meetings that are chaired by the DCM could focus more attention on safety issues,
develop solutions to reduce accidents, and create a safer work environment for embassy staff.

Recommendation 20: Embassy Beirut should establish a schedule for conducting safety, health,
and environmental management committee meetings at least semiannually. (Action: Embassy
Beirut)

Information Management and Information Security

       Embassy Beirut’s information management office supports more than 600 computer users
spread over the embassy compound. The information management program includes the
unclassified and classified networks, classified and unclassified pouch, local mail, radio,
telephone, and switchboard operations. Twelve LE staff members and three U.S. direct-hire
employees support these operations. The program meets essential Department guidelines and
provides adequate support. (b) (5)

                  In addition, the jumble of office buildings situated along a hillside compound
makes customer service a challenge.
       (b) (5)




                                         21
                             SENSITIVE BUT UNCLASSIFIED
                                  SENSITIVE BUT UNCLASSIFIED

     Information Management Staff Oversight

             The information systems officer responsible for unclassified systems operations is not
     providing close oversight of the LE staff responsible for systems administration and customer
     support. The officer sits in the information programming center, located in the controlled access
     area, and is thus too physically isolated from LE staff members to provide them with regular
     oversight and mentoring.

     Recommendation 21: Embassy Beirut should relocate the information systems officer to the
     information systems center to facilitate closer oversight of the local employee systems
     administration staff. (Action: Embassy Beirut)
(b) (5)




     Telephone Infrastructure Upgrade

             Embassy Beirut is preparing to execute a major OBO-funded project to upgrade the
     telephone system and replace old wiring. The same conduit infrastructure supports information
     system data lines and the telephone system. However, the embassy’s plan does not include a data
     line upgrade, which is an essential infrastructure requirement that should be addressed
     concurrently to reduce costs and meet operational needs. Although the information management
     officer is concerned that incorporating the data line upgrade will delay the much-needed project,
     it is more efficient and cost effective to perform both upgrades simultaneously. Until the
     embassy upgrades its data lines, the chancery will continue to suffer intermittent network outages
     and disruptions to vital operations.

     Recommendation 23: Embassy Beirut, in coordination with the Bureau of Overseas Buildings
     Operations and the Bureau of Information Resource Management, should develop a project plan
     for the cable infrastructure upgrade that incorporates data and telephone lines. (Action: Embassy
     Beirut, in coordination with OBO and IRM)
(b) (5)




                                              22
                                  SENSITIVE BUT UNCLASSIFIED
          SENSITIVE BUT UNCLASSIFIED
(b) (5)




                      23
          SENSITIVE BUT UNCLASSIFIED
                                SENSITIVE BUT UNCLASSIFIED
(b) (5)




    Customer Service

            Information management staff meets the mission’s day-to-day operational needs but fails
    to document and track customer service requests routinely. Customers submit requests by phone,
    email, and in person, but rarely via eServices, which is a Department-provided Web application
    for tracking a wide range of support requests. The staff also does not have an established
    standard operating procedure for handling customer service requests. As a result, the mission
    cannot identify trends that would guide resource allocation and identify staff training needs.

    Recommendation 28: Embassy Beirut should implement a standardized procedure to manage
    information technology service requests. (Action: Embassy Beirut)




                                            24
                                SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED


Quality of Life
Community Liaison Office

         The CLO coordinator provides a robust schedule of short outings to supplement regular
trips off the embassy compound. (b) (5)
strict security restrictions make last-minute substitutions impossible. In addition to organizing
two to three outings a week, the CLO coordinator publishes a newsletter twice a month and
coordinates the new employee sponsor program. The Beirut Recreation Association funds some
CLO activities. The incumbent CLO coordinator began working during the inspection. Because
Beirut is an adults-only post and sometimes has few eligible family members seeking
employment, it is difficult to fill the CLO coordinator position. In addition, many eligible family
members are accompanying their spouses on their first overseas assignment, and the learning
curve for the CLO position can be steep. Given these circumstances, it would be prudent to hire
an additional American or LE staff position to support the office.

       Informal Recommendation 10: Embassy Beirut should review the community liaison
       office workload with its Interagency Cooperative Administrative Support Services budget
       committee and establish an additional position in the office.

Employee Association

        The Beirut Recreation Association’s charter, by-laws, financial statements, and license
agreement are in compliance with regulations. The association manages considerable resources,
which include approximately $600,000 in assets, earned primarily from renting 18 rooms in the
Tango Inn, an on-compound lodging facility that houses official visitors. OBO authorization to
operate this housing is current. Nine of the 18 rooms are permanently reserved in advance by
tenant agencies. A memorandum of understanding exists with only one of these agencies.
Payments for the other six rooms are guaranteed by two other agencies, but no advance payment
is required and no memorandum of agreement exists. With only nine other rooms available,
official visitors frequently are unable to obtain reservations in order to perform essential embassy
operations.

         The OIG team found the administration of the Tango Inn reservations process to be
inconsistent. There is a need to develop, in a cooperative and consultative interagency
discussion, a more equitable arrangement for assigning rooms in the Tango Inn. The front office,
in coordination with the Ambassador’s representative to the association and its board, needs to
determine appropriate reservations policies for all 18 rooms in the Tango Inn, laying out specific
criteria for their usage.

Recommendation 29: Embassy Beirut should implement an interagency policy for reserving
and occupying the temporary duty quarters at the Tango Inn. (Action: Embassy Beirut)

        While acknowledging the need for increased attention to the Tango Inn reservations
policy, inspectors found that the front office interposed itself in operating matters relating to the
Beirut Recreation Association, which is contrary to 6 FAM 522 and 6 FAM 514.1 c. For

                                           25
                               SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

example, the management officer is the Ambassador’s designated representative to the board of
directors, but he is frequently excluded from emails and the decisionmaking process concerning
association issues. Instead, the DCM tends to deal directly with the general manager of the
association, the chairperson of the board, or both. In recent board elections, two mission
employees were barred from running for the board. Department regulations at 6 FAM 539 allow
eligible U.S. direct-hire employees to serve on embassy association boards.

        Notes from a late October 2011 meeting indicate that the Ambassador urged the board to
reconsider an earlier decision not to construct a $50,000 storage facility under the swimming
pool as part of an overall renovation project. Earlier, the board had studied and then rejected the
idea of adding this storage facility because of its excessive cost. As chief of mission, the
Ambassador is responsible for ensuring that the association’s operations are managed prudently
and in accordance with regulations contained in 6 FAM 520. The association’s board is elected
to oversee day-to-day operations and make decisions on the use of association funds. Voting
rights for employee associations are limited to eligible U.S. direct-hire members, as noted in 6
FAM 539. Although the Ambassador has broad discretion to monitor the association’s
operations, care must be taken to avoid the appearance of making decisions concerning project
funding that properly belong to the association’s board. The best way to accomplish this is by
conveying the Ambassador’s concerns through a designated intermediary with the board.

Recommendation 30: Embassy Beirut should invest in the Ambassador’s representative the
responsibility for coordinating and interfacing with the Beirut Recreation Association and its
board on day-to-day operations. (Action: Embassy Beirut)

        In 2010, the association reported a loss of more than $100,000. In reality, this was due to
a $200,000 renovation of many of the Tango Inn rooms. The association used operating funds, as
opposed to a reserve fund, to pay for these renovations. A new license agreement with the
association was signed on May 5, 2011. Paragraph five established a requirement that a reserve
fund be established to cover the replacement of furniture and equipment. Recent board notes also
indicate that bathroom renovations need to be completed. Financial records indicate the
association has a reserve fund of almost $300,000. However, that reserve fund is being held to
finance the construction of a new lodging facility at the future new embassy compound site. The
establishment of a second reserve fund is necessary to comply with accounting requirements.

Recommendation 31: Embassy Beirut should establish a second reserve fund to use for any
future equipment or furniture purchases for or renovations to the Tango Inn. (Action: Embassy
Beirut)

       The absence of a commissary is a hindrance to compound residents and temporary duty
employees, as movements off the compound are restricted for security reasons. Small sundry
items and snacks that a commissary normally would provide are not available.

       Informal Recommendation 11: Embassy Beirut should establish a small commissary on
       the embassy grounds.
      The Tango Inn serves breakfast, lunch, and dinner to its temporary visitors and to
employees living on the compound. Customers pay for food when served, but bar drinks are

                                          26
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

handled separately and are provided mostly on an honor system. The result is that the board
cannot be assured that it is capturing all the revenue from liquor sales. A beer vending machine is
readily available to customers but with no association employee oversight.

       Informal Recommendation 12: Embassy Beirut should eliminate use of the honor
       system to pay for bar drinks and implement a cash-only sale mechanism, similar to that
       established for meal purchases, to collect the funds for drinks sales.

       Embassy Beirut has established a Beirut Recreation Association site on the post intranet
page but is not using the site to its fullest capacity. The charter, by-laws, and meeting minutes,
among other things, could be placed on the site to improve transparency of operations.

       Informal Recommendation 13: Embassy Beirut should post significant Beirut
       Recreation Association documents on its intranet page.

Medical Unit

        The medical office is staffed by a full-time LE nurse practitioner and a part-time contract
physician. The physician also serves as the post medical adviser. A Foreign Service health
practitioner will arrive in summer 2012. In the meantime, the LE staff nurse will reach
mandatory retirement age in February 2012. Despite the fact that both the Ambassador and the
regional medical officer recommended that the local nurse stay on board until the health
practitioner arrives, there is no practical hiring mechanism to extend the nurse’s term of
employment.

Recommendation 32: Embassy Beirut should implement a plan to staff the medical unit until
the arrival of the Foreign Service health practitioner. (Action: Embassy Beirut)

Equal Employment Opportunity

        The embassy has designated an Equal Employment Opportunity (EEO) counselor and an
LE staff liaison. The counselor has completed all required training. The LE staff liaison position
was created a month prior to the inspection, and the incumbent has not yet received training. The
embassy has identified a second EEO counselor, who is scheduled to attend training in
December. Information about the EEO program and how to contact the counselor is prominently
posted throughout the embassy compound. A December 2010 management notice explaining the
Department’s position on the EEO program is also posted. Just prior to the inspection, the
Ambassador hosted a town hall meeting to discuss EEO principles and the formation of a code of
conduct committee. Attendance at the meeting was mandatory, and arrangements have been
made to show a video of the meeting to those who could not attend. No EEO cases have been
formally filed with the EEO counselor, but requests for information about EEO principles have
increased significantly since the town hall meeting.




                                          27
                              SENSITIVE BUT UNCLASSIFIED
                                  SENSITIVE BUT UNCLASSIFIED


      Management Controls
              On July 11, 2011, Embassy Beirut transmitted to Washington its most recent annual chief
      of mission management control statements of assurance, in which the Ambassador identified no
      significant weaknesses. The inspectors’ review of documents, policies, and processes generally
      confirms this assessment, although improvements are needed in several areas. The DCM serves
      as the mission’s management controls coordinator.
(b) (5)




                                              28
                                  SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


List of Recommendations
Recommendation 1: (b) (5)




Recommendation 2: (b) (5)



Recommendation 3: Embassy Beirut should establish a formal mentoring and professional
development program for entry-level officers and specialists that emphasizes personal mentoring
by mission leaders. (Action: Embassy Beirut)

Recommendation 4: Embassy Beirut should implement standard procedures to document the
progress of grantees in meeting their stated objectives. (Action: Embassy Beirut)

Recommendation 5: The Bureau of International Narcotics and Law Enforcement Affairs, in
coordination with Embassy Beirut, should terminate the Internal Security Forces secure radio
program and reprogram funds for other use, if appropriate. (Action: INL, in coordination with
Embassy Beirut)

Recommendation 6: Embassy Beirut should acquire contact management software and train
personnel on its use. (Action: Embassy Beirut)

Recommendation 7: Embassy Beirut should designate a consular representative to serve on
the International Cooperative Administrative Support Services budget committee. (Action:
Embassy Beirut)

Recommendation 8: Embassy Beirut, in coordination with the Bureau of Human Resources
and the Bureau of Consular Affairs, should request language designation for the American
citizens services unit chief, position number 30358001, during the next language designation
review. (Action: Embassy Beirut, in coordination with DGHR and CA)

Recommendation 9: (b) (5)


Recommendation 10: Embassy Beirut should standardize its cashier hours so that they are the
same every day. (Action: Embassy Beirut)

Recommendation 11: Embassy Beirut should implement a policy to increase its use of the
post support unit to process vouchers whenever possible. (Action: Embassy Beirut)

Recommendation 12: Embassy Beirut, in coordination with the Bureau of Near Eastern
Affairs, should schedule quarterly human resources officer visits to Beirut until the arrival of the
permanently assigned human resources officer. (Action: Embassy Beirut, in coordination wih
NEA)
                                          29
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

Recommendation 13: Embassy Beirut, in coordination with the Bureau of European and
Eurasian Affairs, should transfer local employee position classification responsibilities to the
Frankfurt Regional Support Center. (Action: Embassy Beirut, in coordination with EUR)

Recommendation 14: Embassy Beirut should abolish locally employed human resources
assistant position number C54225. (Action: Embassy Beirut)

Recommendation 15: Embassy Beirut should terminate the use of purchase orders to employ
foreign nationals. (Action: Embassy Beirut)

Recommendation 16: Embassy Beirut should construct a designated area that secures property
from theft and deterioration pending proper receipt and further disposition. (Action: Embassy
Beirut)

Recommendation 17: Embassy Beirut should store nonexpendable property on shelving that
meets Department of State safety requirements. (Action: Embassy Beirut)

Recommendation 18: Embassy Beirut should implement a policy that details the appropriate
charges for other authorized use of government-owned vehicles. (Action: Embassy Beirut)

Recommendation 19: Embassy Beirut should implement a policy to use the required functions
of the Department of State-standard Work Orders for Windows facilities maintenance
management application. (Action: Embassy Beirut)

Recommendation 20: Embassy Beirut should establish a schedule for conducting safety,
health, and environmental management committee meetings at least semiannually. (Action:
Embassy Beirut)

Recommendation 21: Embassy Beirut should relocate the information systems officer to the
information systems center to facilitate closer oversight of the local employee systems
administration staff. (Action: Embassy Beirut)

Recommendation 22: (b) (5)


Recommendation 23: Embassy Beirut, in coordination with the Bureau of Overseas Buildings
Operations and the Bureau of Information Resource Management, should develop a project plan
for the cable infrastructure upgrade that incorporates data and telephone lines. (Action: Embassy
Beirut, in coordination with OBO and IRM)

Recommendation 24: (b) (5)




Recommendation 25: (b) (5)



                                          30
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

Recommendation 26: (b) (5)



Recommendation 27: (b) (5)


Recommendation 28: Embassy Beirut should implement a standardized procedure to manage
information technology service requests. (Action: Embassy Beirut)

Recommendation 29: Embassy Beirut should implement an interagency policy for reserving
and occupying the temporary duty quarters at the Tango Inn. (Action: Embassy Beirut)

Recommendation 30: Embassy Beirut should invest in the Ambassador’s representative the
responsibility for coordinating and interfacing with the Beirut Recreation Association and its
board on day-to-day operations. (Action: Embassy Beirut)

Recommendation 31: Embassy Beirut should establish a second reserve fund to use for any
future equipment or furniture purchases for or renovations to the Tango Inn. (Action: Embassy
Beirut)

Recommendation 32: Embassy Beirut should implement a plan to staff the medical unit until
the arrival of the Foreign Service health practitioner. (Action: Embassy Beirut)

Recommendation 33: (b) (5)



Recommendation 34: (b) (5)




                                         31
                             SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED


List of Informal Recommendations
       Informal recommendations cover operations matters not requiring action by organizations
outside the inspected unit and/or the parent regional bureau. Informal recommendations will not
be subject to the OIG compliance process. However, any subsequent OIG inspection or on-site
compliance review will assess the mission’s progress in implementing the informal
recommendations.

Informal Recommendation 1: Embassy Beirut should discontinue translation of open-source
press and media that are available to Washington consumers from other sources.

Informal Recommendation 2: Embassy Beirut should include consular representation on the
Mission Strategic and Resource Plan working group.

Informal Recommendation 3: Embassy Beirut should prepare an agenda for annual warden
meetings and use them as opportunities to solicit feedback and evaluate the program on an
ongoing basis.

Informal Recommendation 4: Embassy Beirut should provide training to all consular officers
in the start-to-finish process of producing an emergency passport.

Informal Recommendation 5: Embassy Beirut should develop a written standard operating
procedure for closing the visa section in the event of a crisis.

Informal Recommendation 6: Embassy Beirut should establish an International Cooperative
Administrative Support Services budget committee.

Informal Recommendation 7: Embassy Beirut should implement procedures to close out
purchase orders following final payments to vendors.

Informal Recommendation 8: Embassy Beirut should store inflammable materials properly
and minimize their stock levels based on market availability and usage.

Informal Recommendation 9: (b) (5)



Informal Recommendation 10: Embassy Beirut should review the community liaison office
workload with its Interagency Cooperative Administrative Support Services budget committee
and establish an additional position in the office.

Informal Recommendation 11: Embassy Beirut should establish a small commissary on the
embassy grounds.

Informal Recommendation 12: Embassy Beirut should eliminate use of the honor system to
pay for bar drinks and implement a cash-only sale mechanism, similar to that established for
meal purchases, to collect the funds for drinks sales.

                                        32
                            SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Informal Recommendation 13: Embassy Beirut should post significant Beirut Recreation
Association documents on its intranet page.




                                       33
                           SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED


Principal Officials
                                                        Name      Arrival Date
Ambassador                                     Maura Connelly             9/10
Deputy Chief of Mission                     E. Candace Putnam             6/11
Chiefs of Sections:
  Consular                                   Adrien L. Harchik           7/10
  Management                                 Christian Charette          8/09
  Political/Economic                         Danielle N. Garbe           9/11
  Public Affairs                            Amanda L. Johnson            8/11
  Regional Security                              David Brown             TBD
Other Agencies:
  Department of Defense                          LTC Don Hall            TBD
  US Agency for International Development         Jim Barnhart           9/10
  International Narcotics and Law
  Enforcement Affairs                           Vincent Carver           9/11
  Federal Bureau of Investigation                   Tery Scott          10/10




                                      34
                          SENSITIVE BUT UNCLASSIFIED
                SENSITIVE BUT UNCLASSIFIED


Abbreviations
CLO             Community liaison office
DCM             Deputy chief of mission
Department      U.S. Department of State
EEO             Equal Employment Opportunity
ELO             Entry-level officer
ICASS           International Cooperative Administrative Support Services
ISSO            Information systems security officer
LE              Locally employed (staff)
MEPI            Middle East Partnership Initiative
MSRP            Mission Strategic and Resource Plan
NEA             Bureau of Near Eastern Affairs
OBO             Bureau of Overseas Buildings Operations
OIG             Office of Inspector General
PAS             Public affairs section
USAID           U.S. Agency for International Development




                            35
                SENSITIVE BUT UNCLASSIFIED
   SENSITIVE BUT UNCLASSIFIED




FRAUD, WASTE, ABUSE,
OR MISMANAGEMENT
of Federal programs hurts everyone.




           Contact the
   Office of Inspector General
          HOTLINE
to report illegal or wasteful activities:



             202-647-3320
             800-409-9926


         oighotline@state.gov


             oig.state.gov


      Office of Inspector General
       U.S. Department of State
            P.O. Box 9778
        Arlington, VA 22219




   SENSITIVE BUT UNCLASSIFIED
